HHS/OIG, Audit -"Medicaid School-Based Health Services Administrative Costs Rhode Island - July 2000 Through June 2001,"(A-01-03-00010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid School-Based Health Services Administrative Costs Rhode Island
- July 2000 Through June 2001," (A-01-03-00010)
June 7, 2004
Complete Text of Report is
available in PDF format (374 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based
indirect administrative activities by the State of Rhode Island (State agency)
were allowable under the terms of the State Medicaid plan and applicable Federal
regulations.  For State fiscal year 2001, we found that the State agency
did not allocate administrative indirect costs using a Medicaid share percentage
that accurately reflected Medicaid benefits received as required by Office
of Management and Budget Circular A-87.  As a result, the State agency
overstated its Medicaid claim for reimbursement by a net amount of $123,010
(Federal share).   We recommended that the State agency take steps
to improve its monitoring of contractor processing of the quarterly Medicaid
claims; request that each local education agency review contractor quarterly
claim calculations before attesting to the accuracy of the claims; refund the
overpayment; and recalculate Medicaid share percentages for all of the local
education agencies for the audit period as well as subsequent periods and submit
adjusted claims to the Centers for Medicare and Medicaid Services as necessary.  The
State agency generally agreed to the procedural recommendations but disagreed
to make a financial adjustment.